                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: Al3040054                                                                    Page 1 of 1


                 We reviewed an allegation regarding possible mistreatment of program income 1. To
         ascertain whether participant fees were propefly treated as program income and used to offset
         allowable charges to the grant, we contacted the awardee institution2 to request supporting
         documentation for recorded expenses and credits. Based on the information provided, we
         ascertained that program income had been properly credited to the grant to offset otherwise
         allowable charges.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
